Press Releases Louisiana - 03/05/2010 - Federal Grand Jury Returns Third Superseding Indictment Against Mose Jefferson and Renee Gill Pratt
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Attorney's Office
Eastern District of Louisiana
500 Poydras St
Suite 210-B
New Orleans, Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
FEDERAL GRAND JURY RETURNS THIRD SUPERSEDING INDICTMENT AGAINST MOSE JEFFERSON AND RENEE GILL PRATT
March 05, 2010
RENEE GILL PRATT, age 55, former elected State Representative for House District 91, State of Louisiana, and former New Orleans City Councilmember, and MOSE JEFFERSON, age 66, both residents of New Orleans, Louisiana, were charged via a five (5)-count superseding indictment by a Federal Grand Jury today with Conspiracy to Violate the Racketeer Influenced and Corrupt Organizations Act (RICO), Mail Fraud, and False Statements, announced U. S. Attorney Jim Letten.
Today's indictment is the same as the existing indictment in all counts, charges, and penalties, as they pertain to MOSE JEFFERSON and RENEE GILL PRATT. The indictment eliminates previous substantive counts, including mail fraud, money laundering, aggravated identity theft, and tax evasion, that pertained mainly to Betty Jefferson and Angela Coleman, both of whom pled guilty before Judge Ivan L.R. Lemelle last week. The indictment also represents a refinement of the government's theory of the case with respect toe Count 1, the RICO conspiracy.
The case was investigated by the Federal Bureau of Investigation, the Internal Revenue Service, Criminal Investigation Division, the United States Department of Education, Office of Inspector General and the United States Department of Housing and Urban Development, Office of Inspector General. The case is being prosecuted by Assistant U. S. Attorneys Daniel P. Friel, Brian Marcelle, and Fred P. Harper, Jr.
Download Superseding Indictment  PDF
Top
Printable view
Last Modified: 03/17/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov